         ·        DEPARTMENT OF HEALTH & HUMAN SERVICES                                  OFFICE OF INSPECTOR GENERAL
  ~SUl.\It;I'~'




(~
'+''';J~\-
                                                                                         Office of Audit Services
                                                                                         Region I
                                                                                         John F. Kennedy Federal Building
                                                                                         Boston, MA 02203
                                                                                         (617) 565-2684


                  November 24, 2008

                  Report Nwnber: A-OI-07-00011

                  Mr. Nicholas A. Toumpas
                  Commissioner
                  New Hampshire Department of Health and Human Services
                  129 Pleasant Street
                  Concord, New Hampshire 03301

                  Dear Mr. Townpas:

                  Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                  General (OIG), final report entitled "New Hampshire Medicaid Payments for Skilled
                  Professional Medical Personnel at the Enhanced Rate From October I, 2004, Through September
                  30, 2006." We will forward a copy of this report to the HHS action official noted on the
                  following page for review and any action deemed necessary.

                  The HHS action official will make final determination as to actions taken on all matters reported.
                  We request that you respond to this official within 30 days from the date of this letter. Your
                  response should present any comments or additional information that you believe may have a
                  bearing on the final determination.

                  Pursuant to the principles of the Freedom of Information Act, 5 U.S.c. § 552, as amended by
                  Public Law 104-231, OIG reports generally are made available to the public to the extent the
                  information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, within 10
                  business days after the final report is issued, it will be posted on the Internet at http://oig.hhs.gov.

                  If you have any questions or comments about this report, please do not hesitate to call me, or
                  contact Curtis Roy, Audit Manager, at (617) 565-2684 or through e-mail at
                  curtis.roy@oig.hhs.gov. Please refer to report number A-OI-07-00011 in all correspondence.

                                                                  Sincerely,



                                                                                  J,'./'
                                                                  )' -£"tvlz,../(:-
                                                                 C"J/l                  I i /(....~

                                                                  Michael J. Arm rong
                                                                  Regional Inspector General
                                                                   for Audit Services

                  Enclosure
Page 2 - Mr. Nicholas Toumpas

Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 NEW HAMPSHIRE MEDICAID 

   PAYMENTS FOR SKILLED 

  PROFESSIONAL MEDICAL 

PERSONNEL AT THE ENHANCED 

RATE FROM OCTOBER 1, 2004,

THROUGH SEPTEMBER 30, 2006





                    Daniel R. Levinson

                     Inspector General 


                      November 2008

                      A-01-07-00011

                    Office of Inspector General
                                      http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices
 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                       at htlp://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
governments jointly fund and administer the Medicaid program.

In general, the Federal Government reimburses States for Medicaid administrative costs at a
matching rate of 50 percent. However, an enhanced funding rate of 75 percent is available for
the compensation and training of skilled professional medical personnel (SPMP) and their
supporting staff. SPMP are physicians, dentists, nurses, and other specialized personnel who
have completed at least 2 years of professional education and training in the field of medical care
or appropriate medical practice. To be eligible for reimbursement at the enhanced rate, the
activities of SPMP must require them to use their professional training and experience and must
be directly related to the administration of the Medicaid program. These activities cannot
include direct medical assistance.

Additionally, directly supporting staff whose activities are claimed at the enhanced rate must
provide clerical services that are directly necessary for the completion of the professional
medical responsibilities. Skilled professional medical staff must directly supervise the
supporting staff and the performance of the supporting staff’s work.

In New Hampshire, the Department of Health and Human Services, Office of Medicaid Business
and Policy (the State agency), administers the Medicaid program. For Federal fiscal years (FFY)
2005 and 2006, the State agency’s Medicaid claim for enhanced reimbursement for SPMP
totaled $5,478,721 ($4,109,041 Federal share).

OBJECTIVE

Our objective was to determine whether the Medicaid costs that the State agency claimed for
SPMP at the enhanced Federal funding rate were in accordance with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always properly claim payments for SPMP for FFYs 2005 and 2006 in
accordance with Federal requirements. Of the $4,944,842 ($3,708,632 Federal share) claimed at
the enhanced 75-percent rate that we reviewed, $2,617,289 was allowable. However, $1,091,343
was unallowable. Specifically, the State agency claimed costs for:

   •   personnel functions and other expenses not reimbursable at the enhanced rate and
   •   personnel who did not meet the education requirements.

Because the State agency should have claimed these costs in compliance with Federal
requirements for SPMP at the standard 50-percent rate rather than at the enhanced 75-percent


                                                 i
rate, the State agency received $1,091,343 in overpayments. These errors occurred because the
State agency did not have adequate policies and procedures to ensure that all costs claimed at the
enhanced rate met Federal requirements. It also did not use a methodology to allocate costs for
personnel whose time was split between different functions and ensure that it claimed only
eligible Medicaid administrative activities at the enhanced rate.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government $1,091,343 for the Federal share of personnel, travel
      and other operating costs that were improperly claimed at the enhanced rate,

   •	 implement policies and procedures to ensure that future claims for costs related to SPMP
      are eligible for funding at the enhanced rate, and

   •	 develop a CMS-approved methodology to allocate costs for personnel whose time and
      effort are split between different functions.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency generally disagreed with our findings and
recommendations. The State agency maintained that it correctly sought SPMP reimbursement at
the enhanced rate with the exception of four positions that did not qualify at the enhanced rate.
Furthermore, the State agency generally asserted that the SPMP perform medically based job
functions and administer medically based programs that require medical knowledge and skill.
The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the State agency did not always properly claim payments for SPMP for FFYs
2005 and 2006 in accordance with Federal requirements. Although we agree that some of the
job functions that the State agency claimed may be allowable at the enhanced rate, not all of the
activities claimed were allowable. Because the State agency did not allocate personnel costs for
activities that did not meet Federal requirements for enhanced reimbursement, we continue to
recommend that the State agency refund the personnel costs claimed at the enhanced rate.




                                                ii
                                                    TABLE OF CONTENTS 


                                                                                                                                    Page

INTRODUCTION................................................................................................................1 


          BACKGROUND .......................................................................................................1 

              Medicaid and the Skilled Professional Medical Personnel Program .............1 

              New Hampshire Skilled Professional Medical Personnel Program...............1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2 

               Objective ........................................................................................................2 

               Scope..............................................................................................................2 

               Methodology ..................................................................................................2 


FINDINGS AND RECOMMENDATIONS ......................................................................3 


          FEDERAL REGULATIONS.....................................................................................3 

               Skilled Professional Medical Personnel.........................................................3 

               Other Costs.....................................................................................................4              


          UNALLOWABLE COSTS CLAIMED AT THE ENHANCED

          RATE .........................................................................................................................4 

                Personnel Functions and Other Expenses Not Reimbursable at the 

                   Enhanced Rate ............................................................................................4 

                Personnel Who Did Not Meet Education Requirements ...............................5 


          INADEQUATE POLICIES AND PROCEDURES ..................................................5 


          EFFECT OF CLAIMING UNALLOWABLE COSTS.............................................5 


          RECOMMENDATIONS...........................................................................................5 


          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE.............................................................................................................6 

               Foster Care Health Program Staff..................................................................6 

               Bureau of Elderly & Adult Services Staff .....................................................7 

               Surveillance and Utilization Review Subsystem Staff .................................8 

               Special Medical Services Staff ......................................................................9 

               Disability Determination Professional Staff ..................................................10 


APPENDIXES

          A – RESULTS OF REVIEW

          B – STATE AGENCY COMMENTS



                                                                      iii
                                      INTRODUCTION


BACKGROUND

Medicaid and the Skilled Professional Medical Personnel Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan.

The Federal Government reimburses States for administrative costs necessary for the proper and
efficient administration of the Medicaid State plan. In general, the Federal Government
reimburses States for Medicaid administrative costs at a matching rate of 50 percent. However,
an enhanced funding rate of 75 percent is available for the compensation and training of skilled
professional medical personnel (SPMP) and their supporting staff. SPMP are physicians,
dentists, nurses, and other specialized personnel who have completed at least 2 years of
professional education and training in the field of medical care or appropriate medical practice.
To be eligible for reimbursement at the enhanced rate, the activities of SPMP must require them
to use their professional training and experience and must be directly related to the
administration of the Medicaid program. These activities cannot include direct medical
assistance.

Additionally, directly supporting staff whose activities are claimed at the enhanced rate must
provide clerical services that are directly necessary for the completion of the professional
medical responsibilities. SPMP must directly supervise the supporting staff and the performance
of the supporting staff’s work.

New Hampshire Skilled Professional Medical Personnel Program

In New Hampshire, the Department of Health and Human Services, Office of Medicaid Business
and Policy (the State agency), administers the Medicaid program. Staff of departments within
the State agency submit vouchers for reimbursement of personnel, travel, and other operating
costs for SPMP. The State agency consolidates the vouchers and submits the information to
CMS for reimbursement on its “Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program” (CMS-64) form.

For Federal fiscal years (FFY) 2005 and 2006, the State agency’s Medicaid claim for enhanced
reimbursement for SPMP totaled $5,478,721 ($4,109,041 Federal share).




                                                1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid costs that the State agency claimed for
SPMP at the enhanced Federal funding rate were in accordance with Federal and State
requirements.

Scope

We reviewed $4,944,842 ($3,708,632 Federal share), or 90 percent, of the Medicaid costs that
the State agency claimed at the enhanced rate for SPMP in FFYs 2005 and 2006. We did not
review the total Medicaid costs claimed because not all job numbers constituted a high risk for
material overpayments.

The objective of our review did not require an understanding or assessment of the State agency’s
complete internal control structure. Accordingly, we limited our consideration to obtaining an
understanding of the State agency’s policies and procedures used to claim SPMP costs.

We performed our fieldwork at the State agency in Concord, New Hampshire, from August to
December 2007.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal regulations and CMS guidance;

   •	 interviewed officials from CMS and the State agency;

   •	 reviewed the cost allocation methodologies that the State agency used to claim costs for
      SPMP;

   •	 reconciled the State agency’s Medicaid administrative claim for SPMP for the period
      October 1, 2004, through September 30, 2006, on the CMS-64 form to supporting
      documentation;

   •	 reviewed the State agency’s accounting and payroll records pertaining to SPMP; and

   •	 reviewed medical licensure, certification information, and position descriptions for
      SPMP.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                                2

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always properly claim payments for SPMP for FFYs 2005 and 2006 in
accordance with Federal requirements. Of the $4,944,842 ($3,708,632 Federal share) claimed at
the enhanced 75-percent rate that we reviewed, $2,617,289 was allowable. However, $1,091,343
was unallowable. Specifically, the State agency claimed costs for:

   •   personnel functions and other expenses not reimbursable at the enhanced rate and
   •   personnel who did not meet the education requirements.

Because the State agency should have claimed these costs in compliance with Federal
requirements for SPMP at the standard 50-percent rate rather than at the enhanced 75-percent
rate, the State agency received $1,091,343 in overpayments. These errors occurred because the
State agency did not have adequate policies and procedures to ensure that all costs claimed at the
enhanced rate met Federal requirements. It also did not use a methodology to allocate costs for
personnel whose time was split between different functions and ensure that it claimed only
eligible Medicaid administrative activities at the enhanced rate.

FEDERAL REGULATIONS

Skilled Professional Medical Personnel

Section 1903(a)(2) of the Act provides that States are entitled to an amount equal to 75 percent
of sums expended for compensation or training of SPMP and staff supporting such personnel.

42 CFR 432.50(c)(3) states that the allocation of personnel and staff costs must be based on
either the actual percentages of time spent carrying out duties in the specified areas or another
methodology approved by CMS.

42 CFR 432.50(d)(1) states that the Federal enhanced rate is available for SPMP and directly
supporting staff when the following criteria are met:

       (ii) The skilled professional medical personnel have professional education and
       training in the field of medical care or appropriate medical practice. “Professional
       education and training” means the completion of a 2-year or longer program
       leading to an academic degree or certificate in a medically related profession.
       This is demonstrated by possession of a medical license, certificate, or other
       document issued by a recognized national or State medical licensure or certifying
       organization or a degree in a medical field issued by a college or university
       certified by a professional medical organization.

       (iii) The skilled professional medical personnel are in positions that have duties and
       responsibilities that require those professional medical knowledge and skills.


                                                 3

       (v) The directly supporting staff are secretarial, stenographic, and copying
       personnel and file and records clerks who provide clerical services that are
       directly necessary for the completion of the professional medical responsibilities
       and functions of the skilled professional medical staff. The skilled professional
       medical staff must directly supervise the supporting staff and the performance of
       the supporting staff’s work.

In accordance with 50 Fed. Reg. 46652, 46657 (Nov. 12, 1985),

       [Federal financial participation (FFP)] must be prorated for split functions of
       skilled professional medical personnel and directly supporting staff. If the skilled
       professional medical personnel or directly supporting staff time is split among
       different functions, some of which do not qualify for 75 percent FFP, the skilled
       professional medical personnel or directly supporting staff costs must be allocated
       among the various functions. The allocation must be based on either the actual
       percentage of time spent within each function or another methodology that is
       approved by [CMS].

Other Costs

42 CFR § 433.15(b)(7) states that the Federal Government will pay 50 percent of the costs of “all
other activities the Secretary [of the U.S. Department of Health and Human Services] finds
necessary for the proper and efficient administration of the State plan.”

UNALLOWABLE COSTS CLAIMED AT THE ENHANCED RATE

Personnel Functions and Other Expenses Not Reimbursable at the Enhanced Rate

Contrary to Federal requirements, the State agency claimed personnel costs totaling $3,923,375
($2,942,531 Federal share) at the 75-percent enhanced rate for employees whose positions did
not require medical knowledge or skills or whose responsibilities included functions unrelated to
SPMP administrative activities. Examples of employees’ duties that did not qualify at the
enhanced rate included administering health care programs, managing decision-support systems,
determining Medicaid eligibility, and overseeing general office functions. Rather than allocating
employees’ time among the different functions that they performed, the State agency claimed
100 percent of the employees’ time as Medicaid administration. In addition, the position
descriptions of many of these employees stated that nonmedical degrees, such as a bachelor’s
degree in liberal arts or a master’s degree in business administration, public administration, or
human services, could meet the positions’ education requirements.

The State agency also improperly claimed personnel costs totaling $49,740 ($37,305 Federal
share) at the enhanced rate for a directly supporting staff member who was not directly
supervised by SPMP and termination benefits totaling $4,182 ($3,136) that were not allowable at
the enhanced rate. Moreover, a portion of the $181,182 ($135,887 Federal share) in operating
costs that the State agency claimed at the enhanced rate were for travel and training costs for
staff who did not qualify as SPMP or for qualified staff who spent a portion of their time on



                                                4

unallowable activities. Further, a portion of these costs were for other operating costs, such as
office furniture, supplies, and cell phone costs, that do not qualify for reimbursement at the
enhanced rate.

Accordingly, the State agency should have claimed these personnel, travel, and other expenses at
the 50-percent Federal reimbursement rate and not the 75-percent enhanced rate. Because we
could not determine the amount of time spent on allowable activities, we disallowed the
enhanced portion of these expenses. Thus the Federal claim for these employees was overstated
by $1,039,620.

Personnel Who Did Not Meet Education Requirements

Contrary to Federal requirements, the State agency claimed personnel costs totaling $206,894
($155,170 Federal share) at the enhanced rate for three employees who did not have any
education or training that qualified them as SPMP. Accordingly, the State agency should have
claimed the personnel costs for these three employees at the 50-percent Federal reimbursement
rate. Therefore, the Federal claim for these employees was overstated by $51,723.

INADEQUATE POLICIES AND PROCEDURES

The State agency did not properly claim payments for SPMP at the enhanced Federal funding
rate for FFYs 2005 and 2006 because it did not have adequate policies and procedures to ensure
that all personnel costs claimed at the enhanced rate met Federal regulations. It also did not use
a methodology to allocate costs for personnel whose time was split between different functions
and ensure that it claimed only eligible Medicaid administrative activities at the enhanced rate.

EFFECT OF CLAIMING UNALLOWABLE COSTS

Because the State agency claimed personnel, travel, and operating costs that did not comply with
Federal requirements for SPMP at the enhanced 75-percent rate rather than at the 50-percent rate,
the State agency received $1,091,343 in overpayments. (See Appendix.)

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government $1,091,343 for the Federal share of personnel, travel,
      and other operating costs that were improperly claimed at the enhanced rate;

   •	 implement policies and procedures to ensure that future claims for costs related to SPMP
      are eligible for funding at the enhanced rate; and

   •	 develop a CMS-approved methodology to allocate costs for personnel whose time and
      effort are split between different functions.




                                                 5

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State agency agreed that four of the positions totaling
$78,846 that it had claimed at the enhanced 75-percent rate for SPMP were not eligible for
enhanced reimbursement. The State agency also stated that it had reviewed and identified
ineligible personnel-related expenses totaling $10,753. The State agency said that it would
review its financial protocols and correct the issue.

The State agency disagreed with the remainder of our findings and recommendations. It
maintained that it had correctly sought reimbursement at the enhanced SPMP rate for the
remaining 51 positions that we determined were not fully eligible for enhanced reimbursement.
Specifically, the State agency asserted that the personnel that it claimed at the enhanced SPMP
rate performed medically based job functions and administered medically based programs that
required medical knowledge and skill. We summarize and respond below to the State agency’s
specific comments on the eligibility of different personnel functions within the State agency for
enhanced reimbursement as SPMP.

Foster Care Health Program Staff

State Agency Comments

The State agency disagreed with our disallowance of personnel costs at the enhanced rate for
several positions in the Foster Care Health Program (Psychiatric Social Worker, Nurse
Coordinators, Nurse Supervisors, and Administrator). The State agency stated: “OIG has
recommended 100% disallowance of NH’s Medicaid Foster Health Program for the two year
audit period, based upon a finding that the public health nurses handled a very small number of
non-Medicaid children.” The State agency maintained that the Foster Care Program directly
served the Medicaid program and that it was not reasonable to disallow 100% of these costs
because a full 98% of children in the Foster Care Program were also enrolled in Medicaid. The
State agency gave several examples of why it considered each of these positions to be eligible for
100-percent reimbursement at the enhanced SPMP rate.

Office of Inspector General Response

We did not disallow the personnel costs based on the percentage of non-Medicaid children
enrolled in the Foster Care Program. On the contrary, our disallowance was based primarily on
the State agency’s failure to allocate the nurses’ personnel costs to the different activities that
they performed rather than claiming all of their activities at the enhanced SPMP rate. Pursuant
to 42 CFR § 432.50(c)(1), “FFP [must be] prorated for staff time that is split among functions
reimbursed at different rates.” Moreover, the Departmental Appeals Board (DAB) has held that
the State has a heightened burden of proof when it claims Federal reimbursement at the enhanced
rate and must clearly show that all claims at the enhanced rate meet applicable reimbursement
requirements (Illinois Department of Children & Family Services, DAB 1530, at p. 43 (1995)).
Although we agree that some of the tasks performed by the Psychiatric Social Worker, Nurse
Coordinators, and Nurse Supervisors may be allowable at the enhanced rate, we do not agree that



                                                 6

all of the activities claimed were allowable at the enhanced SPMP rate or attributable to the
Medicaid program.

Based on the information provided by the State agency, we maintain that the Administrator
position generally did not require medical knowledge or skills. For example, the Administrator
position could have been filled by someone with a nonmedical degree, such as a Master’s degree
in public administration, and most of the described job duties, such as budgeting, do not qualify
for reimbursement at the enhanced rate. If some of the Administrator’s duties qualified for
reimbursement under SPMP, the State agency should have allocated these costs between the
standard (50 percent) and enhanced (75 percent) payment rates.

Because the State agency did not keep track of the time that the employees spent on activities
that did not meet Federal requirements for reimbursement at the enhanced rate, we continue to
recommend that the State agency refund the difference between the enhanced rate and the
standard rate for personnel costs claimed for these positions.

Bureau of Elderly & Adult Services Staff

State Agency Comments

The State agency maintained that personnel in the Long Term Care unit in the Bureau of Elderly
& Adult Services were skilled medical professionals who carried out skilled medical functions
and that these positions were thus fully reimbursable as SPMP. Specifically, the State agency
disagreed with our disallowance of personnel costs claimed at the enhanced SPMP rate for
Medical Service Consultants I, Nurse Supervisor, Program Specialist III and IV, Clerk IV,
Secretary II and Case Technician.

The State agency gave several examples of why it considered these positions eligible for full
reimbursement at the enhanced 75-percent rate for SPMP. For example, the State agency
maintained that the Medical Service Consultants were registered nurses who medically assessed
applicants for long term care services to determine whether the applicants required a nursing
home level of care. The State agency asserted that medical expertise was a fundamental
requirement of these positions. It also said that, although the job description for one of these
positions referenced “using an electronic technology environment, develops management tools to
ensure operational effectiveness,” this description only meant that the nurse would be expected
to use electronic software products to do the job. The State agency also maintained that the
Medical Service Consultants’ supervisor was eligible for full reimbursement at the enhanced
SPMP rate because “The hiring and firing, training, and effective utilization of the long-term-
care nurses by the Nurse Supervisor . . . appropriately calls for the skilled medical knowledge of
this medical supervisor.”

In addition, the State agency asserted that the Clerk IV, Secretary II, and Case Technician
positions provided direct clerical support functions for the long-term-care nurses’ medical
eligibility determination process and were supervised by an SPMP. Thus the State agency
maintained that the personnel costs for these positions were properly reimbursable at the
enhanced SPMP rate.



                                                7

Office of Inspector General Response

Although we agree that some of the tasks performed by the Medical Services Consultants,
Program Specialists, and Supervisor may be allowable at the enhanced rate, not all of the
activities claimed—such as evaluating the cost effectiveness of program operations—were
allowable at the enhanced rate. We also do not dispute that the Secretary and Clerk may have
been supervised by skilled professional staff. However, we determined that not all activities
performed by the supervisors qualified for reimbursement at the enhanced rate. In addition, the
Case Technician’s job functions did not meet the definition of SPMP support staff because they
involved nonclerical functions such as certifying eligibility. Moreover, the State agency could
not claim the person in this position as SPMP because he lacked the required educational
qualifications.

We therefore continue to recommend that the State agency refund the enhanced portion of
personnel costs associated with these positions in the Long Term Care unit.

Surveillance and Utilization Review Subsystem Staff

State Agency Comments

The State agency disagreed with our disallowance of personnel costs at the enhanced
reimbursement rate for four employees who worked in the Surveillance and Utilization Review
Subsystem. The State agency commented that we appeared to have determined that a significant
portion of the job activities did not require medical knowledge or skills by reviewing
supplemental job descriptions (SJD) without further inquiry. The State agency claimed that
some accountabilities listed in the SJDs were simply not accurate and were not functions
performed by a particular employee. According to the State agency, “The SJD is not necessarily
reflective of what an individual employee does on a day-to-day basis.” The State agency
maintained that we should focus on the actual job functions performed rather than the job
descriptions in the SJDs.

Office of Inspector General Response

The State agency correctly stated that we primarily based our findings on our review of the job
functions detailed in the SJDs. In accordance with 50 Fed. Reg. 46652, 46656 (Nov. 12, 1985),
enhanced SPMP reimbursement is only available for those positions that require professional
medical knowledge and skills, as evidenced by position descriptions, job announcements, or job
classifications. The State agency maintained that the SJDs were inaccurate and vague and
included functions not performed by the employee. However, the State agency bears the burden
of proof for its assertion that the employees in these positions only performed qualifying SPMP
activities (Illinois Department of Children & Family Services, DAB 1530, at p. 43 (1995)).
Because the State agency did not track the time that employees spent on different activities, we
continue to recommend that the State agency refund the portion of the personnel costs that it
claimed at the enhanced rate for these positions.




                                               8

Special Medical Services Staff

State Agency Comments

The State agency disagreed with our disallowance of personnel costs at the enhanced
reimbursement rate for employees in the Special Medical Services unit. The State agency
maintained that all job functions of the five Public Health Nurse Coordinators qualified for
reimbursement at the enhanced rate because these job functions did not include direct medical
services and required medical knowledge or skills. The State agency noted that we had
determined that the Public Health Nurse Coordinators engaged in non-SPMP activities such as
developing clinical policies and teaching seminars by reviewing the SJD for this position.
However, it reiterated that “the language of the SJD is imprecise” and that we should not use it
as a basis for determining the actual job functions of the position. The State agency also asserted
that, although it could have properly claimed all five Public Health Nurse Coordinators and
directly supporting staff at the enhanced rate, three of the five Public Health Nurse Coordinators
were incorrectly charged at the 50 percent administrative rate. Thus, the State agency reserved
the right to adjust its claim accordingly.

The State agency maintained that the day-to-day job functions of the Secretary II were
supervised by the Public Health Nurse Coordinators and were directly necessary for the
completion of the medical responsibilities of the SPMP.

Office of Inspector General Response

The State agency is correct in its assertion that the personnel costs for two Nurse Coordinators,
and not five, were claimed at the enhanced rate. The State agency initially claimed all of these
costs at the enhanced rate but subsequently claimed the costs for three employees at the 50
percent reimbursement rate through prior period adjustments. The State agency previously
stated that it had made these adjustments in acknowledgement that not all of the job activities of
the Nurse Coordinators were eligible for reimbursement at the enhanced rate. However, the
State agency has since asserted in its written comments that all Public Health Nurse Coordinators
are eligible for reimbursement at the enhanced rate. Regardless, because the State agency did
not track which portion of these costs might be eligible for reimbursement at the enhanced rate,
we continue to recommend that the State agency refund the enhanced portion of the personnel
costs claimed for the remaining two Nurse Coordinators.

We do not dispute that the Secretary II may have performed some work for skilled professional
staff. However, information provided by the State agency indicated that this employee also
worked for non-SPMP staff, such as the Program Administrator, and not all of the job functions
of this position were directly necessary for SPMP staff to complete their responsibilities.
Because the State agency did not track the time that this employee spent on the different
activities or provide evidence that SPMP directly supervised this position, we continue to
recommend that the State agency refund the enhanced portion of personnel costs that it claimed
for this position.




                                                 9

Disability Determination Professional Staff

State Agency Comments

The State agency disagreed with our disallowance of personnel costs at the enhanced
reimbursement rate for the following four positions in the Disability Determination Unit:

   •	 Program Specialist III (1 position) and Medical Services Consultant I (1 position). The
      State agency contended that the SJD that it provided to us for the Program Specialist did
      not relate to the actual job functions performed and that this position’s functions were
      similar to those of the Medical Services Consultant. The State agency maintained that
      these two employees conducted medical eligibility determinations for Medicaid disability
      programs and that all of their job functions required professional medical knowledge and
      skills. It also asserted that providing training on the medical eligibility process is an
      inherent function of these positions and is within the scope of proper SPMP activities.

   •	 Supervisor IV (1 position). The State agency maintained that this employee was a
      registered nurse who performed medical evaluations to determine medical eligibility and
      participated as an active member of the medical review team.

   •	 Clerk IV (1 position). The State agency asserted that the day-to-day clerical tasks of this
      position were supervised by SPMP and that the clerk performed all traditional clinical
      tasks that are directly necessary for the completion of the responsibilities and functions of
      the SPMP.

Office of Inspector General Response

Although we agree that some of the tasks performed by the Medical Services Consultants and
Supervisor positions may be allowable at the enhanced rate, not all of the activities claimed, such
as providing training, were allowable. Because the State agency did not allocate personnel costs
for activities that did not meet Federal requirements for enhanced reimbursement, we continue to
recommend that the State agency refund the personnel costs claimed at the enhanced rate for
these positions.

We do not dispute that the Clerk IV may have been supervised by skilled professional staff.
However, we determined that not all activities performed by the supervisors qualified for
reimbursement at the enhanced rate. Because the State agency did not track the time spent by the
support staff on qualifying SPMP functions, we continue to recommend that the State agency
refund the enhanced portion of personnel costs associated with this position.

We have included the State agency comments in their entirety as Appendix B.




                                                10

APPENDIX

                                       RESULTS OF REVIEW




                                                                   

                   Summary of Allowable and Unallowable SPMP Costs for New Hampshire




                                                                                       

                                          FFY's 2005 and 2006




                                                               

                                                   Federal                        Unallowable Costs
   Job                                Claimed       Share      Allowable
Number(s)            Title             Costs       (75%)         Costs     Personnel Operating     Total
 40026000 Foster Care Health Program $1,579,914   $1,184,935    $789,955    $379,783   $15,198    $394,981

 95600091 Medicaid Medical
 95200071 Professionals                $688,572    $516,429     $344,313    $164,714     $7,402   $172,116

 95601100 Special Medical
 95601101 Services                     $200,667    $150,500     $100,334     $49,665       $501       $50,166

          Medical Services
 48027000 Consultants                $1,439,758   $1,079,819    $719,879    $341,184    $18,755   $359,939

 95600020 Disability Determination
 95802100 Professional Staff           $453,377    $340,033     $227,563    $110,702     $1,768   $112,470

 95600140 Dental Services Unit         $322,593    $241,945     $240,806         $0      $1,139        $1,139

 95600170 Pharmacy Services Unit      $259,961     $194,971   $194,439          $0        $532       $532
          TOTAL                      $4,944,842   $3,708,632 $2,617,289 $1,046,048      $45,295 $1,091,343




                                                                                                                APPENDIX A

APPENDIX B
 Page 1 of 41
APPENDIX B
 Page 2 of 41
APPENDIX B
 Page 3 of 41
APPENDIX B
 Page 4 of 41
APPENDIX B
 Page 5 of 41
APPENDIX B
 Page 6 of 41
APPENDIX B
 Page 7 of 41
APPENDIX B
 Page 8 of 41
APPENDIX B
 Page 9 of 41
APPENDIX B
 Page 10 of 41
APPENDIX B
 Page 11 of 41
APPENDIX B
 Page 12 of 41
APPENDIX B
 Page 13 of 41
APPENDIX B
 Page 14 of 41
APPENDIX B
 Page 15 of 41
APPENDIX B
 Page 16 of 41
APPENDIX B
 Page 17 of 41
APPENDIX B
 Page 18 of 41
APPENDIX B
 Page 19 of 41
APPENDIX B
 Page 20 of 41
APPENDIX B
 Page 21 of 41
APPENDIX B
 Page 24 of 41
APPENDIX B
 Page 25 of 41
APPENDIX B
Page 26 of 41
APPENDIX B
 Page 27 of 41
APPENDIX B
 Page 28 of 41
APPENDIX B
 Page 29 of 41
APPENDIX B
 Page 30 of 41
APPENDIX B
 Page 31 of 41
APPENDIX B
 Page 32 of 41
APPENDIX B
 Page 33 of 41
APPENDIX B
 Page 34 of 41
APPENDIX B
 Page 35 of 41
APPENDIX B
 Page 36 of 41
APPENDIX B
 Page 37 of 41
APPENDIX B
 Page 38 of 41
APPENDIX B
 Page 39 of 41
APPENDIX B
 Page 40 of 41
APPENDIX B
 Page 41 of 41
